CASE NO. 21-5356

IN THE SUPREME COURT OF THE UNITED STATES
JOEL DALE WRIGHT,

Petitioner,
Vv.
STATE OF FLORIDA,

Respondent.

 

CERTIFICATE OF SERVICE
I HEREBY CERTIFY that, on this 13th day of September 2021, a true and correct
copy of the foregoing RESPONDENT'S BRIEF IN OPPOSITION has been submitted
using the Electronic Filing System. I further certify that a copy has been sent by U.S.
mail to: Mary Elizabeth Wells, Law Office of M.E. Wells LLC, 623 Grant Street, SE,
Atlanta, GA 30312, mewells27@comcast.net and Courtney M. Hammer, Capital
Collateral Regional Counsel, 110 SE 6th Street, Suite 601, Fort Lauderdale, FL

33301, hammerC@ccsr.state.fl.us, counsels for Petitioner.
Respectfully Submitted,
ASHLEY MOODY
ATTORNEY GENERAL

    

Af.

ha Uta Z
CAROLYN M. SNURKOWSKI*
Deputy Assistant Attorney General
Florida Bar No. 158541
*Counsel of Record

DORIS MEACHAM
Assistant Attorney General

Office of the Attorney General

PL-01 The Capitol

Tallahassee, FL 32399-1050
Carolyn.Snurkowski@myfloridalegal.com
capapp@myfloridalegal.com

COUNSEL FOR RESPONDENT
